             Office of Inspector General




February 24, 2005

JOHN R. WARGO
VICE PRESIDENT, SERVICE AND MARKET DEVELOPMENT

SUBJECT: Audit Report - Fiscal Year 2004 Financial Installation Audit – Business Mail
         Entry Units (Report Number FF-AR-05-065)

This report presents the results of our financial installation audit of statistically selected
business mail entry units (BMEU) for fiscal year (FY) 2004 (Project Number
04XD003FF000). We conducted this audit in support of the audit of the Postal Service’s
financial statements.

Based on the items we reviewed, financial transactions were reasonably and fairly
presented in the accounting records, and, generally, the internal controls we examined
were in place and effective at 97 of the 98 units. However, at one unit, critical internal
control and compliance issues existed because the unit did not follow procedures for
Periodicals and business mail acceptance and verification. We made recommendations
to district management addressing the findings at each installation. District
management’s comments were responsive to our findings and recommendations, and
the actions taken or planned should correct the issues identified at these installations.

During our audits of the 98 units, we identified internal control and compliance issues
related to mail acceptance and verification procedures, Periodicals publications,
nonprofit mailings, reconciliation of master trust accounts, Permit System1 functions,
and special postage payment systems agreements. These issues were also reported in
our previous report, Fiscal Year 2003 Financial Installation Audit – Business Mail Entry
Units (Report Number FF-AR-04-256, August 18, 2004). As corrective actions
pertaining to these previously reported issues are in progress at the headquarters level,
we are not making further recommendations in this report of audit. We are presenting
the internal control and compliance issues in this report to further emphasize their
significance. Management agreed with the issues presented in the report.
Management’s comments and our evaluation of these comments are included in the
report.




1
    PostalOne! has replaced the Permit System.
     1735 N Lynn St.
     Arlington, VA 22209-2020
     (703) 248-2100
     Fax: (703) 248-2256
We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, please contact Darrell Benjamin or me at (703) 248-2300.


/s/ Colleen A. McAntee

Colleen A. McAntee
Deputy Assistant Inspector General
 for Field Operations

Attachments

cc: Richard J. Strasser, Jr.
    Lynn Malcolm
    Frederick J. Hintenach
    Stephen J. Nickerson
    Steven R. Phelps
Fiscal Year 2004 Financial Installation Audit –                       FF-AR-05-065
 Business Mail Entry Units




                                      TABLE OF CONTENTS

Executive Summary                                                         i

Part I

Introduction                                                              1

    Background                                                            1
    Objectives, Scope, and Methodology                                    2
    Prior Audit Coverage                                                  2

Part II

Audit Results                                                             4

    Employees Did Not Always Follow Acceptance and Verification           4
     Procedures

    Controls Over Periodicals Publications Needed Improvement             5

    Nonprofit Mailings Needed Additional Monitoring                       6

    Reconciliation of Trust Account Balances Needed Improvement           6

    Controls Over Permit System Functions Needed Strengthening            7

    Controls Over Special Postage Payment Systems Agreements Needed
     Improvement                                                          8

    Recommendations                                                       8
    Management’s Comments                                                 9
    Evaluation of Management’s Comments                                   9

    Appendix A. Abbreviations and Acronyms                               10

    Appendix B. Sites Visited                                            11

    Appendix C. Sampling Methodology                                     14

    Appendix D. Management’s Comments                                    16
Fiscal Year 2004 Financial Installation Audit –                                      FF-AR-05-065
 Business Mail Entry Units


                                     EXECUTIVE SUMMARY
 Introduction                     This report summarizes the results of our audits of
                                  98 statistically selected business mail entry units (BMEU)
                                  for fiscal year 2004. The Postal Reorganization Act of 1970
                                  requires annual audits of the Postal Service’s financial
                                  statements. We conducted these audits in support of the
                                  audit of the Postal Service financial statements. The audits
                                  at each of the BMEUs were unannounced.

                                  The overall objectives of our audits were to determine
                                  whether financial transactions of field operations were
                                  reasonably and fairly presented in the accounting records,
                                  and whether internal controls were in place and effective at
                                  the 98 statistically selected BMEUs.

 Results in Brief                 Based on the items we reviewed, financial transactions
                                  were reasonably and fairly presented in the accounting
                                  records, and, generally, the internal controls we examined
                                  were in place and effective at 97 of the 98 units. However,
                                  at one unit, critical internal control and compliance issues
                                  existed because the unit did not follow procedures for
                                  Periodicals and business mail acceptance and verification.
                                  Specifically, BMEU employees did not use the Permit
                                  System to record or account for business mail or Periodicals
                                  revenue. Employees used calculations submitted by the
                                  mailer and did not verify the calculations in the Permit
                                  System. Although revenue was withdrawn from mailers’
                                  trust accounts maintained in the Point of Service (POS
                                  ONE) system, the Permit System was bypassed and
                                  employees relied solely on the calculations submitted by the
                                  mailers on the postage statements. The Postmaster of this
                                  unit stated district officials did not approve his request for
                                  additional resources to perform business mail functions and
                                  did not allow budgeted hours for mail acceptance duties. As
                                  a result, the Postmaster stated employees did not have time
                                  to input data into the Permit System.

                                  During our audits of the 98 units, we identified internal
                                  control and compliance issues related to mail acceptance
                                  and verification procedures, Periodicals publications,
                                  nonprofit mailings, reconciliation of master trust accounts,
                                  Permit System functions, and special postage payment
                                  systems agreements. These issues were also reported in




                                                   i
Fiscal Year 2004 Financial Installation Audit –                                      FF-AR-05-065
 Business Mail Entry Units


                                  our previous report, Fiscal Year 2003 Financial
                                  Installation Audit – Business Mail Entry Units (Report
                                  Number FF-AR-04-256, August 18, 2004).

 Summary of                       Because corrective actions pertaining to these previously
 Recommendations                  reported issues are in progress, we are not making further
                                  recommendations in this audit report. We are presenting
                                  the internal control and compliance issues in this report to
                                  further emphasize their significance.

 Summary of                       Management agreed with the issues presented in the report.
 Management’s                     Management’s comments, in their entirety, are included in
 Comments                         Appendix D of this report.

 Overall Evaluation of            Management’s comments are responsive to the findings.
 Management’s
 Comments




                                                   ii
Fiscal Year 2004 Financial Installation Audit –                                       FF-AR-05-065
 Business Mail Entry Units


                                           INTRODUCTION
 Background                       Beginning in fiscal year (FY) 2001, the Office of Inspector
                                  General (OIG) assumed responsibility for conducting
                                  financial audits. These audits include reviews of
                                  revenue-generating units, which include post offices,
                                  contract postal units, self-service postal centers, and
                                  business mail entry units (BMEU); and stamp distribution
                                  offices. We conduct these audits in support of the overall
                                  audit of the Postal Service’s financial statements.

                                  BMEUs are established for authorized business mailers to
                                  present business mailings. The Postal Service requires all
                                  mailings to be properly prepared by the mailer, taken to an
                                  approved BMEU, and paid for before entering the
                                  mailstream, unless otherwise authorized by a rates and
                                  classification service center.

                                  Most mailings entered at BMEUs are presorted and receive
                                  a discounted rate. Presorting mail is a work-sharing
                                  incentive that offers discounted postage rates to customers
                                  in exchange for performing a portion of the work associated
                                  with mail processing. Unless business mailings are properly
                                  prepared to qualify for the discounts claimed, the Postal
                                  Service incurs increased processing costs.

                                  The Permit System has been the Postal Service’s primary
                                  source for recording business mail and Periodicals
                                  transactions. However, in late FY 2004, BMEUs completed
                                  their migration from the Permit System to the PostalOne!.
                                  In the initial release, PostalOne! allowed users to enter
                                  postage statements, deposits, and other financial
                                  transactions, and to retrieve reports necessary to manage
                                  the day-to-day business of their units. PostalOne! also
                                  allows customers to submit postage statements and other
                                  information to the Postal Service through Web-based
                                  initiatives. PostalOne! will eventually replace all current logs
                                  and worksheets used in the BMEUs.

                                  FY 2004 was the first year BMEUs used financial data from
                                  the Accounting Data Mart (ADM) to reconcile master trust
                                  accounts. This process was designed as a part of the
                                  Postal Service’s Shared Services/Accounting project. ADM
                                  produces a report that provides monthly beginning and




                                                   1
Fiscal Year 2004 Financial Installation Audit –                                                FF-AR-05-065
 Business Mail Entry Units



                                  ending balances and lists daily deposits and withdrawals for
                                  each trust account balance in the Permit System.

    Objectives, Scope,            The overall objectives of our audit were to determine
    and Methodology               whether financial transactions of field operations were
                                  reasonably and fairly presented in the accounting records,
                                  and whether internal controls were in place and effective.

                                  To accomplish our objectives, we conducted fieldwork from
                                  November 2003 through October 2004. The audits at each
                                  of the BMEUs were unannounced. We statistically selected
                                  982 BMEUs for review from a population of 2,390 units.
                                  These 2,390 units reported revenue of $20.7 billion in
                                  FY 2002. (Appendix B lists the sites selected.)

                                  We traced recorded financial transactions to and from
                                  supporting documentation and assessed the reliability of
                                  computerized data by verifying the computer records to
                                  source documents. We also evaluated whether the internal
                                  control structure over financial reporting and safeguarding of
                                  assets was implemented and functioning as designed. We
                                  interviewed employees and observed operations at the
                                  statistically selected BMEUs.

                                  We conducted this audit from October 2003 through
                                  February 2005 in accordance with generally accepted
                                  government auditing standards and included tests of
                                  internal controls that were necessary under the
                                  circumstances. We discussed our observations and
                                  conclusions with management officials and included their
                                  comments, where appropriate. We issued individual reports
                                  to management at each statistically selected BMEU.

    Prior Audit Coverage          We evaluated all findings reported by the Postal Inspection
                                  Service in individual site reports from FYs 1999 through
                                  2000 and by the OIG in FYs 2001 through 2003. We
                                  reported the status of recommendations in the individual site
                                  reports to the district managers.

                                  In our previous report, Fiscal Year 2003 Financial
                                  Installation Audit – Business Mail Entry Units (Report

2
 Our original sample was 100 BMEUs; however, we were not able to complete audit procedures at 2 of the BMEUs
sampled. This is explained in further detail in Appendix C of this report.



                                                      2
Fiscal Year 2004 Financial Installation Audit –                                        FF-AR-05-065
 Business Mail Entry Units


                                  Number FF-AR-04-256, August 18, 2004), we reported
                                  management could strengthen its internal controls over
                                  business mail acceptance, and verification procedures;
                                  Periodicals publications; nonprofit mailings; convenience
                                  deposit point procedures; trust account balances; Permit
                                  System activities; bypass mailings; and special postage
                                  payment systems. Management stated:

                                      •    Corrective actions such as notifying area
                                           Vice Presidents to reiterate training requirements for
                                           business mail entry employees would be
                                           accomplished.

                                      •    Changes to Periodicals mailing procedures would be
                                           included in a Postal Bulletin.

                                      •    Web training was planned.

                                  Further, Postal Bulletins issued in FY 2005 will include
                                  guidance on adherence to current policies and procedures
                                  over nonprofit mailings, trust account balances, computer
                                  system administration, and bypass mailings. Management
                                  stated they would monitor special postage payment
                                  agreements using a database that includes agreements
                                  nationwide.

                                  Management held a teleconference with district and area
                                  BMEU officials in June 2004 to reiterate the importance of
                                  reconciling trust account balances, and stated they would
                                  issue an article in the Postal Bulletin at the end of FY 2004.
                                  We identified many of the same issues in our FY 2004 audit.
                                  We are presenting the internal control and compliance
                                  issues in this report to further emphasize their significance.




                                                     3
Fiscal Year 2004 Financial Installation Audit –                                       FF-AR-05-065
 Business Mail Entry Units



                                          AUDIT RESULTS
 Employees Did Not                Employees did not always follow acceptance and verification
 Always Follow                    procedures. Specifically:
 Acceptance and
 Verification                         •    For business mailings at 41 sites and Periodicals
 Procedures                                mailings at 36 sites, employees did not sign, date, or
                                           otherwise complete all Postal Service sections of the
                                           postage statements.

                                      •    For business mailings at 16 sites and Periodicals
                                           mailings at 22 sites, employees did not always record
                                           revenue on the same day the mailings were accepted.

                                      •    At four units, 71 postage statements totaling $8,400
                                           were not recorded. Therefore, employees had not
                                           deducted funds or collected revenue from the mailers.

                                      •    Employees did not properly use the Mailing Evaluation,
                                           Readability and Lookup INstrument (MERLIN) at
                                           ten sites to perform mail sampling procedures.
                                           Employees at seven sites either did not conduct
                                           verifications for all mailings over 10,000 pieces or did
                                           not use the Random Selection List to select trays used
                                           to test the mail. Employees at three other sites did not
                                           collect additional postage, totaling approximately
                                           $20,000, for mailings that failed tests on MERLIN.
                                           Additionally, employees stated a MERLIN xxxx
                                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx, but it
                                           was not used at all for six months and currently is used
                                           only once a day. Recently, Postal Service
                                           Headquarters indicated they understood a goal of
                                           100 percent was unachievable in many facilities due to
                                           variances in mail characteristics, operating windows,
                                           mail volume, and resource limitations. Headquarters is
                                           collecting data that will enable them to establish
                                           realistic, achievable goals for individual units. They
                                           are also conducting a staffing analysis to help align
                                           resources with MERLIN verification procedures. After
                                           this analysis is complete, they will develop a revised
                                           approach and new goals for verifications using
                                           MERLIN.




                                                     4
Fiscal Year 2004 Financial Installation Audit –                                      FF-AR-05-065
 Business Mail Entry Units


                                      •    At four sites, employees either did not test the
                                           accuracy of their scales or did not use scales to
                                           determine the weight of a single mailpiece during
                                           verification. These conditions occurred because
                                           employees stated they were not aware they had to test
                                           the accuracy of the scales.

                                  Handbook DM-109, Business Mail Acceptance, Chapter 4,
                                  August 1999 (updated through January 2000), gives
                                  procedures for mail acceptance and verification, and requires
                                  employees to ensure mail received from customers meets
                                  specific mail preparation standards and to enter all postage
                                  statements into the Permit System before mail is released to
                                  operations. In general, the conditions described above
                                  occurred because employees stated they were not aware of
                                  all required procedures or did not have sufficient time to
                                  follow procedures due to other priorities. When employees
                                  perform and document mail acceptance and verification
                                  procedures, the Postal Service has increased assurance that
                                  mailings meet the basic standards for mail preparation.
                                  Furthermore, BMEU employees must collect and report
                                  Postal Service revenue in a timely manner for the Postal
                                  Service to receive prompt payment for all services rendered.

 Controls Over                    Employees at 46 of the 98 units did not always adhere to
 Periodicals                      procedures for Periodicals publications. As a result, the
 Publications Needed              Postal Service could not be sure standards for Periodicals
 Improvement                      rates were met, which could result in lost revenue.
                                  Specifically:

                                      •    Employees did not conduct annual postage payment
                                           reviews at 46 units and advertising percentage reviews
                                           at 37 units. Handbook DM-202, Periodicals Postage
                                           Payment Review, September 2000, and Domestic Mail
                                           Manual, Issue 58 (updated with changes through
                                           September 2004), state employees must conduct
                                           postage payment reviews and verify the advertising
                                           percentage reported on the postage statement once
                                           each year. Employees generally stated they did not
                                           conduct the reviews because they were not trained or
                                           did not know how to conduct reviews, or they did not
                                           have time due to other priorities.

                                      •    At 19 units, employees did not ensure mailers
                                           submitted Postal Service (PS) Forms 3526, Statement


                                                    5
Fiscal Year 2004 Financial Installation Audit –                                      FF-AR-05-065
 Business Mail Entry Units


                                           of Ownership, Management, and Circulation, by
                                           October 1 of each year. Domestic Mail Manual,
                                           Issue 58, Section E216, gives the basic standards
                                           for publishers, which include submitting PS
                                           Forms 3526. At some units, employees stated the
                                           PS Form 3526 was not on file because other duties
                                           took priority. Other employees stated they were not
                                           aware of the requirement, and others stated the form
                                           was not on file because employees had not followed
                                           up with the mailers to obtain it.

 Nonprofit Mailings               Employees at 12 of the 98 units accepted mailings at
 Needed Additional                Nonprofit mail rates from organizations that did not have
 Monitoring                       authorization from the rates and classification service center.
                                  Domestic Mail Manual, Issue 58, Section E670, states only
                                  organizations that meet the standards and have received
                                  authorization from the Postal Service may mail eligible matter
                                  at Nonprofit mail rates. These conditions existed because
                                  employees did not monitor the status of mailers’ eligibility for
                                  Nonprofit rates. In some cases, employees believed the
                                  mailers were authorized to claim Nonprofit Standard Mail
                                  rates because the Permit System showed them as eligible for
                                  nonprofit status. When mailers mail at Nonprofit rates without
                                  authorization, the risk the Postal Service could lose revenue
                                  is greatly increased. The Postal Service could have earned
                                  potential additional revenue of $116,000 for these mailings
                                  that were inappropriately made at the Nonprofit rate.

 Reconciliation of                Employees at 36 of the 98 sites did not reconcile differences
 Trust Account                    between trust account balances provided in ADM with
 Balances Needed                  balances maintained by the unit. The Postmasters Field
 Improvement                      Guide, Version 4.0, January 3, 2003 (updated through
                                  April 2004), requires units to reconcile master trust account
                                  balances. Employees stated they had not received training;
                                  therefore, they did not understand the requirement to
                                  reconcile trust accounts with data in the accounting system.
                                  Trust account balances must be reconciled with the
                                  accounting system because imbalances could result in
                                  misstatements of liabilities and revenue.




                                                    6
Fiscal Year 2004 Financial Installation Audit –                                                    FF-AR-05-065
 Business Mail Entry Units




    Controls Over                 Employees did not always follow prescribed procedures for
    Permit System                 using the Permit System.3 Specifically, Supervisors did not
    Functions Needed              always ensure funds from closed accounts were transferred
    Strengthening                 in accordance with Postal Service instructions, monitor
                                  employee overrides, and limit access to the system.

    Closing Inactive              Employees at 29 sites did not refund balances to customers
    Customer Accounts             or transfer unclaimed refunds to miscellaneous revenue.
    Needed Improvement            Handbook F-1, Post Office Accounting Procedures,
                                  Section 631, November 1996 (updated with Postal Bulletin
                                  revisions through October 2004), requires employees to close
                                  an account for inactivity (two years without a transaction) and
                                  send a cancellation notice to the customer. Employees
                                  stated they did not send refunds or make transfers because
                                  they did not understand the requirements or did not have time
                                  to follow the prescribed procedures. Inactive accounts must
                                  be processed as required because funds could be improperly
                                  disbursed.

    Employee Overrides            Supervisors at 18 sites did not use the daily Override Report
    Were Not Reviewed             to monitor employees’ overrides. Handbook DM-109,
                                  Appendix A, states supervisors should use the Override
                                  Report generated from the Permit System to track
                                  unnecessary overrides and investigate their causes and
                                  resolution. Most Supervisors stated they were not aware of
                                  the requirement to use the Override Report to review Clerks’
                                  overrides. Monitoring the Override Report can also prevent
                                  problems such as unpaid annual fees or negative customer
                                  balances that appear as recurring overrides.

    Access Restrictions           Former employees at 19 sites still had access to the Permit
    Were Not Always               System. Handbook AS-805, Information Security,
    Followed                      Section 9-2.6, March 2002, states Managers are responsible
                                  for notifying System Administrators when personnel no longer
                                  need access to information resources. Managers at the sites
                                  stated they had not deleted the employees from the system
                                  because they overlooked the requirement or were not aware
                                  of the procedures for deleting employees’ access. When
                                  access to the Permit System is not restricted, its security is
                                  diminished.

3
  As previously stated PostalOne! has now replaced the Permit System; however, these issues are indicative of
system control issues and also apply to PostalOne!.



                                                        7
Fiscal Year 2004 Financial Installation Audit –                                          FF-AR-05-065
 Business Mail Entry Units




 Controls Over Special Employees at 16 of the 98 units did not follow prescribed
 Postage Payment       procedures for special postage payment systems
 Systems Agreements agreements. Specifically:
 Needed Improvement
                          • Employees at 13 sites accepted mailings under a
                             special postage payment system agreement, although
                             the agreement had expired. Domestic Mail Manual,
                             Issue 58, specifies mailers who mail under a
                             special postage payment system agreement must
                             have a current, two-year agreement on file. Managers
                             stated agreements had expired because they
                             overlooked the requirement or other work took priority,
                             not allowing them time to ensure the agreements were
                             kept up to date. Accepting mail under special postage
                             payment systems agreements without current
                             authorizations could result in lost revenue.

                                      •    Employees at three sites did not always conduct the
                                           required verifications for Manifest Mailing Systems. In
                                           addition, at another location, the mail was left
                                           unsecured from the time the employee completed the
                                           verification until it was picked up for processing.
                                           Publication 401, Guide to Manifest Mailing System,
                                           June 2002, gives instructions for accepting mailings
                                           under this type of agreement. Employees stated they
                                           did always conduct verifications because of time
                                           constraints. If controls for verification are not followed,
                                           the Postal Service cannot be sure the mailer complies
                                           with all terms of the agreement, which may create a
                                           potential revenue loss. xxxxxxxxxxxxxxxxxxxxxxx
                                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                           xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

 Recommendations                  The issues presented in this report were reported in our
                                  previous report, Fiscal Year 2003 Financial Installation
                                  Audit – Business Mail Entry Units (Report Number FF-AR-04-
                                  256, August 18, 2004). Because corrective actions pertaining
                                  to these previously reported issues are in progress, we are
                                  not making further recommendations in this report. We are
                                  presenting the internal control and compliance issues in this
                                  report to further emphasize their significance.




                                                     8
Fiscal Year 2004 Financial Installation Audit –                                  FF-AR-05-065
 Business Mail Entry Units




 Management’s                     Management agreed with the issues presented in the report.
 Comments

 Evaluation of                    Management’s comments are responsive to the findings.
 Management’s
 Comments




                                                  9
Fiscal Year 2004 Financial Installation Audit –                                FF-AR-05-065
 Business Mail Entry Units


                APPENDIX A. ABBREVIATIONS AND ACRONYMS
FY                                Fiscal Year
BMEU                              Business Mail Entry Units
PS                                Postal Service
MERLIN                            Mail Evaluation, Readability and Lookup INstrument
SAFR                              Standard Accountability for Retail
SURDA                             Standard Field Accounting Unit Revenue Data Access
ADM                               Accounting Data Mart




                                                  10
Fiscal Year 2004 Financial Installation Audit –                                             FF-AR-05-065
 Business Mail Entry Units



                                   APPENDIX B. SITES VISITED



   Business Mail Entry Unit (BMEU)                Revenue $                   Location

                             FY 2002 Revenue $100 Million or Greater
     1. xxxxxxxxxxxxxxxxxx                         $761,197,342    xxxxxxxxxxxx, Wisconsin
     2. xxxxxxxxxxxxxxxxxx                          596,854,368    xxxxxxxxxxxx, New York
     3. xxxxxxxxxxxxxxxxxx                          453,880,884    xxxxxxxxxxxx Texas
     4. xxxxxxxxxxxxxxxxxx                          436,718,656    xxxxxxxxxxxx, Nebraska
     5. xxxxxxxxxxxxxxxxxx                          174,099,241    xxxxxxxxxxxx, Arizona
     6. xxxxxxxxxxxxxxxxxx                          167,781,891    xxxxxxxxxxxx, Georgia
     7. xxxxxxxxxxxxxxxxxx                          159,987,132    xxxxxxxxxxxx, California
     8. xxxxxxxxxxxxxxxxxx                          153,844,194    xxxxxxxxxxxx, Illinois
     9. xxxxxxxxxxxxxxxxxx                          152,775,885    xxxxxxxxxxxx, Nevada
     10. xxxxxxxxxxxxxxxxxx                         144,072,933    xxxxxxxxxxxx, Florida
     11. xxxxxxxxxxxxxxxxxx                         140,305,432    xxxxxxxxxxxx, Illinois
     12. xxxxxxxxxxxxxxxxxx                         139,445,478    xxxxxxxxxxxx, New Jersey
     13. xxxxxxxxxxxxxxxxxx                         133,529,260    xxxxxxxxxxxx, Illinois
     14. xxxxxxxxxxxxxxxxxx                         123,973,019    xxxxxxxxxxxx, Minnesota
         Category Subtotal                        $3,738,465,715
                     FY 2002 Revenue Between $1 Million and $100 Million
     15. xxxxxxxxxxxxxxxxxx                         $93,821,007    xxxxxxxxxxxx, Indiana
     16. xxxxxxxxxxxxxxxxxx                          88,690,032    xxxxxxxxxxxx, California
     17. xxxxxxxxxxxxxxxxxx                          76,269,730    xxxxxxxxxxxx, Pennsylvania
     18. xxxxxxxxxxxxxxxxxx                          74,268,820    Xxxxxxxxxxxx, Florida
     19. xxxxxxxxxxxxxxxxxx                          65,376,270    xxxxxxxxxxxx, Maryland
     20. xxxxxxxxxxxxxxxxxx                          63,453,191    xxxxxxxxxxxx, Missouri
     21. xxxxxxxxxxxxxxxxxx                          58,868,059    xxxxxxxxxxxx, Virginia
     22. xxxxxxxxxxxxxxxxxx                          50,216,260    xxxxxxxxxxxx, New York
     23. xxxxxxxxxxxxxxxxxx                          46,656,056    xxxxxxxxxxxx, South Carolina
     24. xxxxxxxxxxxxxxxxxx                          46,446,986    xxxxxxxxxxxx, New Jersey
     25. xxxxxxxxxxxxxxxxxx                          46,228,653    xxxxxxxxxxxx, Illinois
     26. xxxxxxxxxxxxxxxxxx                          45,287,401    xxxxxxxxxxxx, Delaware
     27. xxxxxxxxxxxxxxxxxx                          44,445,818    xxxxxxxxxxxx, California
     28. xxxxxxxxxxxxxxxxxx                          40,357,417    xxxxxxxxxxxx, Connecticut
     29. xxxxxxxxxxxxxxxxxx                          39,059,266    xxxxxxxxxxxx, Colorado
     30. xxxxxxxxxxxxxxxxxx                          35,879,611    xxxxxxxxxxxx, Pennsylvania
     31. xxxxxxxxxxxxxxxxxx                          33,531,108    xxxxxxxxxxxx, North Carolina


                                                    11
Fiscal Year 2004 Financial Installation Audit –                                              FF-AR-05-065
 Business Mail Entry Units


   Business Mail Entry Unit (BMEU)                Revenue $                    Location
     32. xxxxxxxxxxxxxxxxxx                         33,200,305      xxxxxxxxxxxx, Wisconsin
     33. xxxxxxxxxxxxxxxxxx                         30,070,890      xxxxxxxxxxxx, Illinois
     34. xxxxxxxxxxxxxxxxxx                         25,418,844      xxxxxxxxxxxx, California
     35. xxxxxxxxxxxxxxxxxx                         24,699,117      xxxxxxxxxxxx, Arizona
     36. xxxxxxxxxxxxxxxxxx                         23,358,176      xxxxxxxxxxxx, Indiana
     37. xxxxxxxxxxxxxxxxxx                         21,830,289      xxxxxxxxxxxx, Missouri
     38. xxxxxxxxxxxxxxxxxx                         20,552,854      xxxxxxxxxxxx, Pennsylvania
     39. xxxxxxxxxxxxxxxxxx                         18,736,388      xxxxxxxxxxxx , Pennsylvania
     40. xxxxxxxxxxxxxxxxxx                         18,687,385      xxxxxxxxxxxx, Virginia
     41. xxxxxxxxxxxxxxxxxx                         16,135,328      xxxxxxxxxxxx, Ohio
     42. xxxxxxxxxxxxxxxxxx                         15,218,381      xxxxxxxxxxxx, Michigan
     43. xxxxxxxxxxxxxxxxxx                         14,210,590      xxxxxxxxxxxx, Maryland
     44. xxxxxxxxxxxxxxxxxx                         13,027,840      xxxxxxxxxxxx, West Virginia
     45. xxxxxxxxxxxxxxxxxx                         12,452,408      xxxxxxxxxxxx, California
     46. xxxxxxxxxxxxxxxxxx                         11,805,481      xxxxxxxxxxxx, California
     47. xxxxxxxxxxxxxxxxxx                         10,825,254      xxxxxxxxxxxx, New York
     48. xxxxxxxxxxxxxxxxxx                         10,369,115      xxxxxxxxxxxx, New Jersey
     49. xxxxxxxxxxxxxxxxxx                         10,211,050      xxxxxxxxxxxx, California
     50. xxxxxxxxxxxxxxxxxx                         10,025,881      xxxxxxxxxxxx, New York
     51. xxxxxxxxxxxxxxxxxx                             9,411,624   xxxxxxxxxxxx, Georgia
     52. xxxxxxxxxxxxxxxxxx                             8,749,815   xxxxxxxxxxxx, Connecticut
     53. xxxxxxxxxxxxxxxxxx                             8,747,161   xxxxxxxxxxxx, Florida
     54. xxxxxxxxxxxxxxxxxx                             7,768,103   xxxxxxxxxxxx, Texas
     55. xxxxxxxxxxxxxxxxxx                             7,734,143   xxxxxxxxxxxx, North Carolina
     56. xxxxxxxxxxxxxxxxxx                             7,522,641   xxxxxxxxxxxx, Tennessee
     57. xxxxxxxxxxxxxxxxxx                             7,359,451   xxxxxxxxxxxx, Alabama
     58. xxxxxxxxxxxxxxxxxx                             6,162,134   xxxxxxxxxxxx, New Jersey
     59. xxxxxxxxxxxxxxxxxx                             5,508,172   xxxxxxxxxxxx, Massachusetts
     60. xxxxxxxxxxxxxxxxxx                             5,082,709   xxxxxxxxxxxx, Ohio
     61. xxxxxxxxxxxxxxxxxx                             4,836,211   xxxxxxxxxxxx, Virginia
     62. xxxxxxxxxxxxxxxxxx                             4,679,536   xxxxxxxxxxxx, Wisconsin
     63. xxxxxxxxxxxxxxxxxx                             4,608,894   xxxxxxxxxxxx, Pennsylvania
     64. xxxxxxxxxxxxxxxxxx                             4,158,041   xxxxxxxxxxxx, Texas
     65. xxxxxxxxxxxxxxxxxx                             3,601,513   xxxxxxxxxxxx, Texas
     66. xxxxxxxxxxxxxxxxxx                             3,131,758   xxxxxxxxxxxx, California
     67. xxxxxxxxxxxxxxxxxx                             3,060,936   xxxxxxxxxxxx, Texas
     68. xxxxxxxxxxxxxxxxxx                             2,891,121   xxxxxxxxxxxx, Florida
     69. xxxxxxxxxxxxxxxxxx                             2,829,791   xxxxxxxxxxxx, Maryland
     70. xxxxxxxxxxxxxxxxxx                             2,652,671   xxxxxxxxxxxx, Tennessee



                                                   12
Fiscal Year 2004 Financial Installation Audit –                                            FF-AR-05-065
 Business Mail Entry Units


   Business Mail Entry Unit (BMEU)                Revenue $                    Location
     71. xxxxxxxxxxxxxxxxxx                              2,316,050   xxxxxxxxxxxx, Arizona
     72. xxxxxxxxxxxxxxxxxx                              2,011,607   xxxxxxxxxxxx, North Carolina
     73. xxxxxxxxxxxxxxxxxx                              1,959,461   xxxxxxxxxxxx, Texas
     74. xxxxxxxxxxxxxxxxxx                              1,885,461   xxxxxxxxxxxx, Michigan
     75. xxxxxxxxxxxxxxxxxx                              1,452,801   xxxxxxxxxxxx, New Jersey
     76. xxxxxxxxxxxxxxxxxx                              1,278,203   xxxxxxxxxxxx, Montana
     77. xxxxxxxxxxxxxxxxxx                              1,182,487   xxxxxxxxxxxx, Utah
     78. xxxxxxxxxxxxxxxxxx                              1,104,450   xxxxxxxxxxxx, Pennsylvania
     79. xxxxxxxxxxxxxxxxxx                              1,102,733   xxxxxxxxxxxx, Connecticut
         Category Subtotal                        $1,414,480,939
                               FY 2002 Revenue Less Than $1 Million
     80. xxxxxxxxxxxxxxxxxx                              $929,346    xxxxxxxxxxxx, New York
     81. xxxxxxxxxxxxxxxxxx                               868,735    xxxxxxxxxxxx, Arizona
     82. xxxxxxxxxxxxxxxxxx                               734,113    xxxxxxxxxxxx, Louisiana
     83. xxxxxxxxxxxxxxxxxx                               725,179    xxxxxxxxxxxx, Maine
     84. xxxxxxxxxxxxxxxxxx                               632,548    xxxxxxxxxxxx, Nebraska
     85. xxxxxxxxxxxxxxxxxx                               432,799    xxxxxxxxxxxx, New York
     86. xxxxxxxxxxxxxxxxxx                               399,453    xxxxxxxxxxxx, Kentucky
     87. xxxxxxxxxxxxxxxxxx                               265,681    xxxxxxxxxxxx, Kentucky
     88. xxxxxxxxxxxxxxxxxx                               219,224    xxxxxxxxxxxx, New York
     89. xxxxxxxxxxxxxxxxxx                               210,179    xxxxxxxxxxxx, California
     90. xxxxxxxxxxxxxxxxxx                               202,585    xxxxxxxxxxxx, Kentucky
     91. xxxxxxxxxxxxxxxxxx                               187,157    xxxxxxxxxxxx, New Hampshire
     92. xxxxxxxxxxxxxxxxxx                                97,910    xxxxxxxxxxxx, Colorado
     93. xxxxxxxxxxxxxxxxxx                                96,400    xxxxxxxxxxxx, Texas
     94. xxxxxxxxxxxxxxxxxx                                19,075    xxxxxxxxxxxx, Pennsylvania
     95. xxxxxxxxxxxxxxxxxx                                18,072    xxxxxxxxxxxx, Tennessee
     96. xxxxxxxxxxxxxxxxxx                                     0    xxxxxxxxxxxx, Texas
     97. xxxxxxxxxxxxxxxxxx                                     0    xxxxxxxxxxxx, Mississippi
     98. xxxxxxxxxxxxxxxxxx                                     0    xxxxxxxxxxxx, New York
         Category Subtotal                           $6,029,456
 Overall Total                                    $5,158,976,111




                                                    13
Fiscal Year 2004 Financial Installation Audit –                                      FF-AR-05-065
 Business Mail Entry Units


                    APPENDIX C. SAMPLING METHODOLOGY
We did a compliance sample of BMEUs to test internal controls. The sample design allows
us to compute the upper control limit of deviations from prescribed control procedures and
to identify internal control deficiencies. We made separate estimates for each category of
internal controls tested (24 projections). The audit universe consisted of 2,390 BMEUs.
The universe was obtained from the Standard Field Accounting Unit Revenue Data Access
(SURDA) database.

We sampled 100 BMEUs (See note below). Our sampling objective was to estimate the
rate of deviation from prescribed control procedures. This sample was designed to achieve
a 5 percent risk of over-reliance (BETA Risk), with a tolerable deviation rate of 5 percent,
allowing one compliance error. For comparative purposes, we also provided our results for
10 percent BETA Risk. Our sample results yielded the following upper limits:

                                                                                    UEL*       UEL
                                                            Number     Reported      (.05      (.10
                 Description of Attributes                  of Sites   Findings     BETA)     BETA)
 Step 3301 - Negative Balances                                   100            3     0.075     0.065
 Step 3302 - Supervisory Reviews of Override Transactions        100          18      0.254     0.238
 Step 3303 - Procedures for Closing Cancelled Accounts           100          29      0.372     0.355
 Step 3304 - Restricting Access to Permit System                 100          19      0.265     0.249
 Step 3305 - By Pass Mailings                                    100            2     0.061     0.052
 Step 3306 - Reconciliation of Master Trust Accounts             100          36      0.445     0.427

 Step 3401 - Business Mail Acceptance and Verification
 Procedures                                                     100           41     0.495     0.478
 Step 3402 - Convenience Deposit Points                         100            1     0.046     0.038
 Step 3403 - Nonprofit Rates Authorizations                     100           12     0.186     0.172
 Step 3404 - Observation of Business Mail                       100            7     0.126     0.114

 Step 3501 - Periodical Authorizations                          100            3     0.075     0.065
 Step 3502 - Missing Periodical Postage Statements              100            4     0.088     0.078
 Step 3503 - Postage Payment Reviews                            100           46     0.545     0.528
 Step 3504 - Periodicals Acceptance and Verification
 Procedures                                                     100           36     0.445     0.427
 Step 3505 - Eligibility Reviews                                100           19     0.265     0.249
 Step 3506 - Advertising Percentage Verifications               100           37     0.455     0.437
 Step 3507 - Monthly Postage Statements                         100            4     0.088     0.078
 Step 3508 - Observation of Periodicals                         100            3     0.075     0.065

 Step 3601 - Authorizations for SPPS Agreements                 100           13     0.197     0.183
 Step 3602 - Compliance with Terms of Agreements                100            5     0.101     0.089
 Step 3603 - Acceptance Procedures At Detached Mail Units       100            7     0.126     0.114
 Step 3604 - Plant Verified Drop Shipments                      100            2     0.061     0.052

 Step 3701 - Acceptance Procedures using Merlin                 100           10     0.162     0.149
 Step 3702 - Site Readiness for Merlin                          100            3     0.075     0.065
* UEL – upper error limit.


                                                       14
Fiscal Year 2004 Financial Installation Audit –                          FF-AR-05-065
 Business Mail Entry Units


Note: We were not able to complete audit procedures at 2 of the 100 BMEUs sampled. We
treated these units as not containing any deviation conditions for purposes of these
estimates. This represents potential nonresponse bias. Accordingly, if the two units not
audited contained any of the deviations noted herein, the estimates would be greater.




                                                  15
Fiscal Year 2004 Financial Installation Audit –           FF-AR-05-065
 Business Mail Entry Units



                          APPENDIX D. MANAGEMENT’S COMMENTS




                                                  16
